AMTRAK INVOICE REVIEW:
Internal Control Weaknesses Lead to Overpayments
(Union Pacific)




                           Report No. OIG-A-2013-011 | March 28, 2013
      NATIONAL RAILROAD
      PASSENGER CORPORATION




Memorandum
To:            Dan Black, Acting Chief Financial Officer

From:          David R. Warren
               Assistant Inspector General, Audits

Date:          March 28, 2013

Subject:       Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments
               (Union Pacific) (Report No. OIG-A-2013-011)

The Amtrak Office of Inspector General (OIG) conducted this audit because of
previously identified control weaknesses and the significant amount of money
associated with Amtrak’s on-time-performance incentives and service payments to host
railroads. Over time, our office has identified more than $89 million in overpayments
and potential recoveries, disclosed in OIG audit reports issued since 1995. This does not
include over $2.3 million identified in this report, but does include over $19 million in
overpayments that have already been collected. This report is part of a series of OIG
audits of payments to host railroads. (See Appendix I for a list of prior reports).

The objective of this audit was to determine whether Union Pacific Railroad Company’s
(the host railroad) on-time-performance incentives and services invoiced to Amtrak
from June 1995 through December 1999 were accurate. For a detailed discussion of our
audit scope and methodology, see Appendix I.



SUMMARY OF RESULTS

Union Pacific’s (UP) invoices to Amtrak for on-time-performance (OTP) incentives and
service payments from June 1995 through December 1999 were not always accurate or


         Certain information in this report has been redacted due to its sensitive nature.
                                                                                                             2
                              Amtrak Office of Inspector General
                     Amtrak Invoice Review: Internal Control Weaknesses
                            Lead to Overpayments (Union Pacific)
                         Report No. OIG-A-2013-011, March 28, 2013

adequately supported. The invoice inaccuracies went undetected, and Amtrak overpaid
Union Pacific about $3.2 million for OTP incentives for the 55-month period. However,
Amtrak can only potentially recover approximately $2.2 million of that amount because
the amendment agreement             the amount of OTP             that can be assessed
against the host railroad.

We also identified inaccurate invoices for services amounting to $79,069, and an invoice
credit due Amtrak for $46,389 that has not been collected. These amounts are in
addition to about $41,000 in OTP and services errors detected by Amtrak’s invoice-
review process. Table 1 summarizes amounts audited and potentially recoverable.

           Table 1. Amounts Audited and Potentially Recoverable,
                     June 1995 through December 1999

      Union Pacific On-Time-Performance (OTP) and Service Categories

                                                                                         Amount
     OTP and Service Categories                      Amounts Audited                 Recoverable
     OTP Incentives                                            $3,441,566                $2,213,402
     Service Categories and
     Credit Due Amtrak

                                                                   222,029                    79,069
         July 1998 Credit Due Amtrak                                   (NA)                   46,389
     Service/Credit Subtotal                                     $222,029                  $125,458
       Total                                                  $3,663,595                $2,338,860
     Source: Amtrak OIG analysis of Union Pacific and Amtrak data


The invoice inaccuracies went undetected because, as previously reported,1 Amtrak did
not have in place an adequate invoice-review process during this period. We
recommended improvements to that process, including new invoice-review policies
and procedures. Amtrak, in the last 6 months, has completed implementing those

1On-Time-Performance Incentives: Inaccurate Invoices were Paid Due to Long-standing Weaknesses in Amtrak’s
Invoice-Review Process (Report No. 403-2010, April 21, 2011).



        Certain information in this report has been redacted due to its sensitive nature.
                                                                                                   3
                             Amtrak Office of Inspector General
                    Amtrak Invoice Review: Internal Control Weaknesses
                           Lead to Overpayments (Union Pacific)
                        Report No. OIG-A-2013-011, March 28, 2013

recommendations. We believe that the actions Amtrak has taken, if sustained, should
improve the review process and help ensure that invoice errors are detected before
payments are made. We are recommending that Amtrak’s Acting Chief Financial
Officer take action to recover the $2,338,860 in overpayments and credit. The Acting
Chief Financial Officer agreed.



OPERATING AGREEMENTS

Since 1971, Union Pacific Railroad Company2 provided services to Amtrak for Amtrak’s
operation of intercity rail passenger service under an operating agreement. Over time,
the operating agreement had been amended through amendment agreements and
amendment agreement changes. Effective March 1, 1990, Amtrak and Union Pacific
Railroad Company entered into the Third Amendment Agreement. The amendment
agreement provisions were further amended by amendment agreement change
records.3

We reviewed and used the amendment agreement and applicable amendment
agreement changes as the basis for determining the accuracy of the host railroad’s
invoices for on-time-performance incentives and services. As authorized by the Third
Amendment Agreement, the host railroad submitted a monthly invoice for on-time-
performance incentives and services provided to Amtrak. The amendment agreement
includes incentives to encourage Union Pacific to facilitate Amtrak passenger train on-
time operations. On-time-performance incentive payments or penalties are calculated
using provisions described in appendix V of the amendment agreement—Performance
Payments and Penalties.




2 Union Pacific Railroad Company was also referred to as Union Pacific in the Third Amendment
Agreement to the 1971 operating agreement.
3 An Amtrak official confirmed that the amendment agreement change records we used represent all

amendments to the agreement that are applicable to the audit.



        Certain information in this report has been redacted due to its sensitive nature.
                                                                                                             4
                              Amtrak Office of Inspector General
                     Amtrak Invoice Review: Internal Control Weaknesses
                            Lead to Overpayments (Union Pacific)
                         Report No. OIG-A-2013-011, March 28, 2013

Appendix V of the operating agreement also sets forth the specific criteria, generally
referred to as tolerances,4 to be used to determine the on-time-performance incentive
payments due to the host railroad. The appendix also describes how the provisions
should be applied and how the OTP incentives should be calculated. For OTP incentive
calculation purposes, a train is considered on time if it arrives on or before the
scheduled arrival time, after taking into consideration allowed tolerance minutes.

Appendix III of the amendment agreement lists in summary form the authorized
services that make up the monthly charges to Amtrak, while appendix IV provides the
cost details of the authorized services listed in appendix III.



INVOICES FOR ON-TIME-PERFORMANCE INCENTIVES AND
SERVICES CONTAINED INACCURACIES

Union Pacific invoices to Amtrak for OTP incentives and services payments from June
1995 through December 1999 were not accurate or adequately supported. We identified
nearly $3.2 million in OTP invoice inaccuracies, of which Amtrak can only potentially
recover $2.2 million. About $1 million in OTP invoice inaccuracies is not recoverable
because appendix V, section E, of the amendment agreement              the assessment of
OTP              against the host railroad. As shown in Table 1, we also found $79,069 in
billing inaccuracies for                                                  , and a July 1998
invoice credit due Amtrak for $46,389. These billing inaccuracies are in addition to
about $41,000 of invoice errors detected through Amtrak’s invoice-review process.
Amtrak did not detect these additional inaccuracies because, as previously reported,5
Amtrak did not have in place an adequate invoice-review process during the audit
period. We recommended improvements to that process, and Amtrak has completed
implementing those recommendations. We believe that the actions Amtrak has taken, if
sustained, should improve the review process and help ensure that invoice errors are
detected before payments are made. (See Appendix II for further discussion of this
issue).

4 Tolerances are allowances given for various reasons to the host railroad. The allowances are in the form
of delay minutes that can be applied to an Amtrak train that is late in arriving at a checkpoint. The net
effect of applying these minutes can result in a train’s being recorded as on time.
5 Report No. 403-2010, April 21, 2011.




        Certain information in this report has been redacted due to its sensitive nature.
                                                                                                      5
                              Amtrak Office of Inspector General
                     Amtrak Invoice Review: Internal Control Weaknesses
                            Lead to Overpayments (Union Pacific)
                         Report No. OIG-A-2013-011, March 28, 2013



On-Time-Performance Incentives

We grouped the invoice inaccuracies into the following four categories:

(1) Unallowed/Unsupported tolerances, which accounted for about 45 percent of the total
    inaccuracies
(2) Inaccurate application of agreement provisions, which accounted for about 34 percent of
    the inaccuracies
(3) On-time trips not claimed, which accounted for about 14 percent of the total
    inaccuracies
(4) Inaccurate departure and/or arrival times, which accounted for about 7 percent of the
    inaccuracies.

Figure 1 illustrates this percentage breakdown graphically.6

                            Figure 1. UP OTP Invoice Errors,
                               June 1995–December 1999

                                                              Unallowed/Unsupported
                                                              Tolerances

                                  7%
                           14%                                Inaccurate Application of
                                             45%              Agreement Provisions


                               34%                            On-time Trips Not Claimed



                                                              Inaccurate Departure and/or
                                                              Arrival Times



               Source: Amtrak OIG analysis of Union Pacific and Amtrak data



6For instances in which there was more than one error type, we used the error that had the greatest
impact on the OTP calculation for classification.



        Certain information in this report has been redacted due to its sensitive nature.
                                                                                           6
                           Amtrak Office of Inspector General
                  Amtrak Invoice Review: Internal Control Weaknesses
                         Lead to Overpayments (Union Pacific)
                      Report No. OIG-A-2013-011, March 28, 2013


Invoices Contained Unallowed/Unsupported Tolerances

Union Pacific invoices included tolerances for delays that were either not allowed by
the amendment agreement or not supported by adequate source documents. These
inaccuracies accounted for about 45 percent of the total invoice inaccuracies. For
example, for a long distance train segment in May 1999, the UP invoice contained a 48-
minute miscellaneous tolerance for the train meeting another long-distance train. This
invoice was inaccurate because the agreement did not contain a tolerance for meeting a
train. This inaccuracy contributed to the $7,615 in overpayments for this train segment
for May 1999.

As another example, a UP invoice for November 1997 was inaccurate because it used a
special tolerance that was not supported. As indicated in the letter agreement between
Amtrak and Union Pacific in April 1997, the host railroad must
                                                                    when using a special
tolerance. UP did not provide adequate documentation to support the special tolerance
contained in the invoice. The invoice records did not contain a letter requesting the
special tolerance or the supporting documentation of actual work performed in the UP
invoice. The unsupported tolerance contributed to the $5,188 in invoice inaccuracies for
this train segment for November 1997.

Invoices Were Based on Agreement Provisions that Were Inaccurately Applied or
Had Expired

About 34 percent of Union Pacific’s invoice inaccuracies were due to inaccurately
applying amendment agreement provisions or using expired provisions in calculating
invoice charges. For example, the host railroad used an inaccurate running time and
scheduled departure time for a short-distance train in September 1999. UP used 6
minutes longer running time and a 49-minute later scheduled departure time than what
was stated in the amendment agreement. The combination of these inaccuracies led to
UP using a scheduled arrival time that was 55 minutes later than allowed. These invoice
inaccuracies contributed to the $25,425 in overpayments for this train segment for
September 1999.




       Certain information in this report has been redacted due to its sensitive nature.
                                                                                                       7
                              Amtrak Office of Inspector General
                     Amtrak Invoice Review: Internal Control Weaknesses
                            Lead to Overpayments (Union Pacific)
                         Report No. OIG-A-2013-011, March 28, 2013

Union Pacific also inaccurately applied the agreement provisions related to claiming
                   7
                           status. For instance, in July 1999, for one train segment, the
host railroad claimed       for a defective wheel. However, Amtrak’s Train Operations
Support System's notes did not support this claim. The train's status should have been
“late” rather than     . Further, UP had inaccurately used Mountain Standard Time in
calculating the scheduled arrival time, instead of Pacific Standard Time. These
inaccuracies contributed to the $7,590 in overpayments for this train segment for July
1999.

Invoices Included Inaccurate Reporting of Train Status that Should Have Been
Claimed as On-time

In some instances, Union Pacific invoices were understated because they did not claim
the accurate on-time status. This accounted for about 14 percent of the total
inaccuracies. For example, for a train segment in June 1999, UP used a running time that
was 5 minutes less than the time allowed in calculating the scheduled arrival time. As a
result, the train should have been identified as arriving on time at the station. This and
other inaccuracies contributed to the $2,565 in an understated invoice for this train
segment for June 1999.

Invoices Contained Inaccurate Departure and/or Arrival Times

In about 7 percent of the total billing inaccuracies, Union Pacific did not use accurate
departure and/or arrival times in its on-time-performance calculations. For example, in
January 1996, the host railroad reported that a long-distance train arrived 5 minutes
earlier than the time supported by the Amtrak Delay Report. This difference caused the
train status to change from on time to late. This and other inaccuracies contributed to
the $19,938 in overpayments for this train segment for January 1996.

In another example, UP reported that in July 1995, a train departed 38 minutes later
than the time supported by the Amtrak Delay Report. This difference caused the train



7A“              ” status is allowed when certain operating conditions are met based on the contract
provision. When one of these conditions causes a train to arrive late, the train’s performance is
                              in the monthly on-time-performance calculation.



        Certain information in this report has been redacted due to its sensitive nature.
                                                                                               8
                            Amtrak Office of Inspector General
                   Amtrak Invoice Review: Internal Control Weaknesses
                          Lead to Overpayments (Union Pacific)
                       Report No. OIG-A-2013-011, March 28, 2013

status to change from on time to late. This and other inaccuracies contributed to
Amtrak's overpaying $15,486 in this segment for July 1995.



Service Categories and Credits

We identified invoice inaccuracies related to two services totaling $79,069, and a July
1998 invoice credit due Amtrak of $46,389.


Invoice Inaccuracies in Two Service Categories

Union Pacific’s invoices for two service categories during the period of our review
contained invoice inaccuracies that resulted in overpayment to UP. These categories
included
                          expenses. Amtrak agreed to pay amounts as specified in the
amendment agreement for these two service categories. Table 2 summarizes the
amounts audited and potentially recoverable for these services.

        Table 2. UP Service Categories with Invoice Inaccuracies,
                   June 1995 through December 1999

                      Service Categories Invoice Inaccuracies

                                                            Amounts           Amount
   Service Categories                                        Audited      Recoverable

                                                              $200,694           $71,448
                                                                21,335             7,621
    Total                                                    $222,029           $79,069
   Source: OIG analysis of Union Pacific and Amtrak data

July 1998 Credit Due Amtrak

For July 1998, Union Pacific’s invoice showed OTP penalties totaling $184,144, but
Amtrak determined that they should have been $179,534. When the OTP penalties of
$179,534 were netted against UP’s July 1998 services of $133,145, it resulted in a credit of

       Certain information in this report has been redacted due to its sensitive nature.
                                                                                            9
                           Amtrak Office of Inspector General
                  Amtrak Invoice Review: Internal Control Weaknesses
                         Lead to Overpayments (Union Pacific)
                      Report No. OIG-A-2013-011, March 28, 2013

$46,389 due Amtrak. We did not find any record showing that Amtrak received the
credit.



RECOMMENDATION

We recommend that Amtrak’s Acting Chief Financial Officer take action to recover the
$2,338,860 that Amtrak overpaid Union Pacific for on-time-performance incentives and
services.



MANAGEMENT COMMENTS AND OIG ANALYSIS

In commenting on a draft of this report, management stated that the report provides
useful information on which Amtrak management can take action. Management also
indicated its intent to enter into appropriate conversations with Union Pacific once this
report is issued. Specifically, management stated that the Managing Deputy General
Counsel, on behalf of Amtrak’s Transportation and Finance departments, will pursue
any amounts that are recoverable under the law and within the terms of the applicable
operating agreement between Amtrak and Union Pacific. Additionally, management
stated that it remains committed to making valuable improvements to the host railroad
invoice-administration review process and has progressively improved the process.
Management’s comments meet the intent of our recommendation.

Amtrak’s memorandum commenting on the draft report is reprinted in its entirety as
Appendix III.




       Certain information in this report has been redacted due to its sensitive nature.
                                                                                                             10
                              Amtrak Office of Inspector General
                     Amtrak Invoice Review: Internal Control Weaknesses
                            Lead to Overpayments (Union Pacific)
                         Report No. OIG-A-2013-011, March 28, 2013

                                              Appendix I

                           SCOPE AND METHODOLOGY

This report provides the results of an OIG review to determine the accuracy of Union
Pacific’s on-time-performance incentives and services invoiced to Amtrak from June
1995 through December 1999. We performed our work from February 20108 through
December 2012, in Los Angeles. We provided a draft of this report to Amtrak
management on December 19, 2012, and requested a written response within 30
calendar days. Management provided its response. Certain information in this report
has been redacted due to its sensitive nature.

For the 55-month period from June 1995 through December 1999, we audited over $3.4
million for OTP incentives, and approximately $7.5 million9 for services.

The authority to perform an audit of Union Pacific’s invoices is established in Article V,
Section 5.2(b) of the amendment agreement with Amtrak. This section allows Amtrak to
audit and evaluate any payment relating to either financial or operational issues. Under
Article V, Section 5.2(c), the host railroad is required to maintain supporting accounting,
operating, and mechanical department records and any other data related to the
performance of services for Amtrak, and those records are to be made available for
inspection and copying.

To determine if UP’s invoices for OTP incentives and services were accurate, we
performed substantive testing. First, we conducted a risk analysis of OTP incentives




8 This audit started in November 1999 with the intention of auditing on a sample basis, but the audit was
delayed when Union Pacific requested a 100-percent review. In December 2004, OIG presented the
preliminary audit results to UP, but due to subpoena-related investigative work, we were unable to
proceed with discussion of our audit findings until 2008. In February 2008, we again presented our
preliminary audit results to UP, but no resolution of the audit findings was reached. In February 2010, we
restarted the audit to finalize our work.
9 The approximately $7.5 million in services excludes diesel fuel and fuel-handling services because these

items were reviewed and reported on in Union Pacific Railroad Diesel Fuel and Fuel-Handling, June 1995–
December 1999 (Report No. 506-2009, August 24, 2009).



        Certain information in this report has been redacted due to its sensitive nature.
                                                                                                              11
                               Amtrak Office of Inspector General
                      Amtrak Invoice Review: Internal Control Weaknesses
                             Lead to Overpayments (Union Pacific)
                          Report No. OIG-A-2013-011, March 28, 2013

and 24 service categories10 included in UP’s monthly invoices to Amtrak. We
judgmentally selected the OTP incentives and service categories, taking into
consideration risk factors such as highest dollar invoiced for services, potential for
recovery, prior audits, operational changes, and management interest. Based on our risk
analysis, we selected eight service categories along with OTP incentives for review, and
included any associated prior-period adjustments and exception notices. For these
selected categories, we reviewed invoiced amounts for the entire audit period.

We reviewed the Third Amendment Agreement, effective March 1, 1990, and
subsequent amendment agreement changes, to establish our criteria, focusing on
sections relating to on-time-performance incentives and services.

We then reviewed relevant prior audit reports, such as Report 504-2003 and
Report 97-401, which included the review of OTP incentive payments and other services
to Union Pacific; and Report 401-2008, regarding management’s internal controls (see
Prior Coverage, below).

Further, we reviewed and compared selected items invoiced against the host railroad’s
supporting documents and/or Amtrak records. For OTP incentives, we also obtained
Amtrak delay reports for analysis of on-time-performance incentives claimed, reviewed
the detailed support for incentives submitted to Amtrak, and compared available
Amtrak delay reports and/or Train Operations Support System (TOSS)11 data with UP
on-time-performance detail data, including departure and arrival times, tolerances
claimed, delay minutes, and reasons for delays. Finally, we calculated the overpayment
and/or underpayment amounts resulting from inaccurate UP invoices.

Our work was performed in accordance with generally accepted government auditing
standards. These standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained



10 Diesel fuel and fuel-handling costs were also selected in our risk analysis but excluded from this audit
because they were previously reviewed and reported; see note 9.
11 TOSS is managed by Amtrak and contains data on train operations, including departure and arrival

times, trip delays, and reasons for delays.



        Certain information in this report has been redacted due to its sensitive nature.
                                                                                           12
                           Amtrak Office of Inspector General
                  Amtrak Invoice Review: Internal Control Weaknesses
                         Lead to Overpayments (Union Pacific)
                      Report No. OIG-A-2013-011, March 28, 2013

provides a reasonable basis for our findings and conclusions based on our audit
objectives.


Internal Controls

We did not review Union Pacific’s internal control structure from August 1995 through
January 2000, the time period during which UP submitted its invoices. We did review
the adequacy of Amtrak’s management controls for reviewing host railroad invoices by
reviewing the extent to which inaccuracies were undetected and by relying on our prior
audit work, which had addressed the adequacy of those controls.


Computer-Processed Data

We used computerized Amtrak TOSS data to verify the OTP data in Union Pacific’s
invoices. However, where Amtrak delay reports were available, we used them as the
primary source to support our work. Although we did not verify the reliability of the
TOSS data, UP has in the past accepted TOSS data as an alternate form of support in the
absence of Amtrak delay reports. Therefore, we consider the data sufficiently reliable
for purposes of our audit objective.

We also used computer-processed data in the hard copies of Amtrak’s electronic
records of Union Pacific’s invoices. To test the validity of the data, we compared
Amtrak’s records against the host railroad’s invoices. We attempted to verify the total
amount paid on Amtrak’s invoices against the total amount paid in Amtrak’s accounts-
payable system. However, Amtrak informed us that the data in the accounts-payable
system had been purged. Although we were unable to verify the data to the accounts-
payable system, we did review each UP invoice and ensured that UP’s invoice amounts
were accurately reflected in Amtrak’s records. Therefore, we consider the data in
Amtrak’s records to be sufficiently reliable for purposes of our audit objective.




       Certain information in this report has been redacted due to its sensitive nature.
                                                                                              13
                           Amtrak Office of Inspector General
                  Amtrak Invoice Review: Internal Control Weaknesses
                         Lead to Overpayments (Union Pacific)
                      Report No. OIG-A-2013-011, March 28, 2013

Prior Coverage

Our review of prior Amtrak OIG reports found previously-identified control
weaknesses and significant dollar overpayments to host railroads. We reviewed the
following reports and used information from them in conducting our audit:

Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments (Metro North)
(OIG-A-2013-010, March 27, 2013). Over $1 million in overpayments found

Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments (BNSF) (OIG-A-
2013-008, March 26, 2013). Over $1.4 million in overpayments found

Amtrak Invoice Review: Internal Control Weaknesses Lead to Overpayments (Southern Pacific)
(OIG-A-2013-007, March 13, 2013). About $1.2 million in overpayments found

Amtrak Invoice Review: Undetected Inaccuracies Resulted in Overpayments (OIG-A-2013-006,
February 15, 2013). Over $2.1 million in overpayments found

Amtrak Invoice Review: Inaccurate Invoices Were Paid, But Progress is Being Made to Improve
the Invoice-Review Process (OIG-A-2012-005, February 16, 2012). Over $700,000 in
overpayments found

On-Time-Performance Incentives: Inaccurate Invoices were Paid Due to Weaknesses in
Amtrak’s Invoice-Review Process (OIG-A-2012-004, February 15, 2012). Over $9 million in
overpayments found

On-Time-Performance Incentives: Inaccurate Invoices were Paid Due to Long-standing
Weaknesses in Amtrak’s Invoice-Review Process (Report No. 403-2010, April 21, 2011). Over
$500,000 in overpayments found

BNSF On-Time-Performance Incentives: Inaccurate Invoices and Lack of Amtrak Management
Review Lead to Overpayments (Report No. 407-2003, September 24, 2010). Over $1 million
in overpayments found

CSX On-Time-Performance Incentives: Inaccurate Invoices and Lack of Amtrak Management
Review Lead to Overpayments (Report No. 406-2005, March 30, 2010). Over $20 million in
overpayments found




       Certain information in this report has been redacted due to its sensitive nature.
                                                                                           14
                           Amtrak Office of Inspector General
                  Amtrak Invoice Review: Internal Control Weaknesses
                         Lead to Overpayments (Union Pacific)
                      Report No. OIG-A-2013-011, March 28, 2013

Union Pacific Railroad Diesel Fuel and Fuel-Handling June 1995—December1999 (Report No.
506-2009, August 24, 2009). Over $65,000 in overpayments found

Host RRCA & Operations Management Controls (Report No. 401-2008, August 21, 2008).

Union Pacific Railroad On-time Performance January 2000—December 2001 (Report No. 504-
2003, July 22, 2003). Over $1 million in overpayments found

Union Pacific Railroad On-Time Performance and Services March 1990—May 1995 (Report
No. 97-401, April 7, 1997). Over $2 million in overpayments found




       Certain information in this report has been redacted due to its sensitive nature.
                                                                                                15
                                Amtrak Office of Inspector General
                       Amtrak Invoice Review: Internal Control Weaknesses
                              Lead to Overpayments (Union Pacific)
                           Report No. OIG-A-2013-011, March 28, 2013

                                              Appendix II


                     AMTRAK’S ACTIONS TO IMPROVE ITS
                        INVOICE-REVIEW PROCESS

Since 2008, we have made recommendations aimed at helping Amtrak improve its
invoice-review process. A summary of our recommendations—and the company’s
responses—are detailed below.

In August 2008, we reported12 that management controls over Amtrak’s invoice-review
process were inadequate and ineffective. The host railroad invoices consistently had
errors that went undetected yet the invoices were paid. As a result, Amtrak in many
cases overpaid for incentives and services. We recommended improvements to the
invoice-review process. Amtrak, in the last 6 months, has completed implementing
those recommendations.

Specifically, we made recommendations with regard to the functions, responsibilities,
and organizational structure of the two groups responsible for host railroad activities.
Amtrak has restructured its organization. The group responsible for reviewing and
approving payment of monthly host railroad invoices previously reported to the Vice
President, Transportation. In October 2010, this group—now called the Host Railroad
Invoice Administration (HRIA) group—began reporting to the Chief Financial Officer.

We also recommended that Amtrak develop and implement formal procedures that
clearly define the invoice-review group’s objectives and responsibilities. In response to
our recommendation, Amtrak has implemented detailed procedures that now do this.

We further recommended that Amtrak perform a real-time, thorough, and complete
review of railroad invoices prior to approving payment, and automate the invoice-
review process. Amtrak has now begun doing this. HRIA has increased its staff by three
positions. Amtrak has also developed and implemented an HRIA checklist for the
invoice-review process. The checklist holds employees accountable for making
complete invoice reviews; it also provides managers with an understanding of the steps

12   Host RRCA & Operations Management Controls (OIG Audit Report 401-2008, August 21, 2008).



           Certain information in this report has been redacted due to its sensitive nature.
                                                                                            16
                           Amtrak Office of Inspector General
                  Amtrak Invoice Review: Internal Control Weaknesses
                         Lead to Overpayments (Union Pacific)
                      Report No. OIG-A-2013-011, March 28, 2013

taken to review the invoice and any issues that prevent a full review from being
performed. Additionally, group officers certify, by signing the checklist, that they have
reviewed the appropriate documentation and recalculated the invoice prior to
approving it for payment. Finally, HRIA has worked with the Information Technology
Department to develop reports to facilitate a thorough and complete review of invoices
prior to payment.

We believe that the actions Amtrak has taken, if sustained, should improve the review
process and help ensure that invoice errors are detected before payments are made. At
some future point, we will conduct a follow-up review of Amtrak’s invoice-review
process.




       Certain information in this report has been redacted due to its sensitive nature.
                                                                                    17
                    Amtrak Office of Inspector General
           Amtrak Invoice Review: Internal Control Weaknesses
                  Lead to Overpayments (Union Pacific)
               Report No. OIG-A-2013-011, March 28, 2013

                                Appendix III

             COMMENTS FROM AMTRAK’S
           ACTING CHIEF FINANCIAL OFFICER




Certain information in this report has been redacted due to its sensitive nature.
                                                                                           18
                           Amtrak Office of Inspector General
                  Amtrak Invoice Review: Internal Control Weaknesses
                         Lead to Overpayments (Union Pacific)
                      Report No. OIG-A-2013-011, March 28, 2013

                                       Appendix IV

                                ABBREVIATIONS

CSX          CSX Transportation, Inc.

DNC          Do Not Count

OIG          Office of Inspector General

OTP          on-time performance

RRCA         Railroad Contract Administration

TOSS         Train Operations Support System

UP           Union Pacific
XOY          Oakland Yard




       Certain information in this report has been redacted due to its sensitive nature.
                                                                                          19
                          Amtrak Office of Inspector General
                 Amtrak Invoice Review: Internal Control Weaknesses
                        Lead to Overpayments (Union Pacific)
                     Report No. OIG-A-2013-011, March 28, 2013

                                      Appendix V

                            OIG TEAM MEMBERS

See See Young              Senior Director, Audits

Anil Gunaratne             Senior Auditor

Edgardo Carlos             Senior Auditor

Trig Alonso                Auditor

Michael P. Fruitman        Principal Communications Officer




      Certain information in this report has been redacted due to its sensitive nature.
                                                                                           20
                           Amtrak Office of Inspector General
                  Amtrak Invoice Review: Internal Control Weaknesses
                         Lead to Overpayments (Union Pacific)
                      Report No. OIG-A-2013-011, March 28, 2013

            OIG MISSION AND CONTACT INFORMATION

Amtrak OIG’s Mission          The Amtrak OIG’s mission is to provide independent,
                              objective oversight of Amtrak’s programs and operations
                              through audits, inspections, evaluations, and
                              investigations focused on recommending
                              improvements to Amtrak’s economy, efficiency, and
                              effectiveness; preventing and detecting fraud, waste, and
                              abuse; and providing Congress, Amtrak management,
                              and Amtrak’s Board of Directors with timely information
                              about problems and deficiencies relating to Amtrak’s
                              programs and operations.


Obtaining Copies of OIG Available at our website: www.amtrakoig.gov
Reports and Testimony
To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                               Web:      www.amtrakoig.gov/hotline
                               Phone:    800.468.5469

Congressional and              David R. Warren
Public Affairs                 Assistant Inspector General, Audits
                               Mail:     Amtrak OIG
                                         10 G Street, N.E., 3W-300
                                         Washington, D.C. 20002
                               Phone:    202.906.4742
                               Email:    david.warren@amtrakoig.gov




       Certain information in this report has been redacted due to its sensitive nature.
